AU99-018 September 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Legal Aid Bureau, Inc.
Recipient No. 321016
Final Report No. AU99-018
September 1999
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE AND METHODOLOGY
RESULTS OF AUDIT
Case Service Reporting
Case Service Reporting Requirements
Granbtee's 1998 Grant Activity Report
Denial of Information
Examination of Reported Cases
Errors in Closed Cases
Errors in Open Cases
Supervisory Controls Lacking
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
APPENDIX I - LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
APPENDIX II - LEGAL AID BUREAU'S COMMENTS ON DRAFT REPORT
EXECUTIVE SUMMARY
The Legal Aid Bureau of Maryland, (grantee) denied the Office of Inspector
General (OIG) access to information and as a result, the OIG was precluded from
completing the planned audit.  Asserting attorneyclient privilege, the grantee staff
refused to provide any non-public information to verify the type of legal services
provided to clients in our sample and we were unable to determine if any legal
services were provided.  The provision of legal service is a prerequisite for reporting
a case.
As a result of the grantees denial of access to information, this report
covers only the audit work performed at the grantees Baltimore headquarters
office.  The grantees 1998 Grant Activity Report overstated the number of cases
closed during the year and cases remaining open at year-end for the Baltimore
office.  The grantee reported 6,195 closed cases in the Baltimore office, but our
testing indicated that only an estimated 3,499 cases should have been reported.
Therefore, the reported closed cases were overstated by approximately
43.5 percent.  The reported 4,197 open cases were overstated by an estimated
1,803 or 43 percent.  The primary cause of the problems with both closed and
open cases was the grantees failure to promptly close cases when legal services
were no longer provided.
These errors remained even though the grantee revised its 1998 Grant
Activity Report to correct overstatements of closed and open cases.  After the OIG
informed the grantee that an audit would be performed, but prior to the start of the
audit fieldwork, the grantee submitted a revised 1998 Grant Activity Report that
reduced closed cases by 5.7 percent and open cases by 45.5 percent program-
wide.  The grantees attempt to correct the Grant Activity Report was not
successful.
The grantees management should establish additional controls that ensure
accurate case statistical information is collected and reported.  Recommendations
to establish such controls and to correct the above problems are on page 7.
BACKGROUND
Legal Aid Bureau, Inc. is a nonprofit Maryland corporation providing legal
services to indigent individuals who meet established eligibility guidelines.  The
grantee has a headquarters office in Baltimore and 11 branch offices throughout
Maryland.  Its staff includes approximately 92 attorneys, 63 paralegals, and 69
other staff who provide administrative support services.  In 1998, the grantee
received funding totaling over $11 million.  Approximately 27 percent, or
$3 million, came from LSC in the form of a Basic Field and a Migrant Farmworker
grant.
The grantee is required to prepare and submit an annual Grant Activity
Report to LSC on key aspects of its workload.  The report includes statistics for
basic field services, Migrant Farmworker services and Private Attorney Involvement
programs funded with LSC funds, including the number of open and closed cases,
types of cases, and the reasons for closing cases.  For calendar year 1998, the
grantee originally reported 18,286 closed cases and 14,090 open cases.  A revised
1998 Grant Activity Report was submitted that reported 17,238 closed cases and
7,674 open cases.
The grantee tracks client cases primarily through an automated case
management system "Clients for Windows," which is the source of the information
provided in the Grant Activity Report.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its revised 1998 Grant Activity
Report.  The OIG planned to audit the grantees two largest offices, the Baltimore
headquarters office and the Riverdale branch office.  These offices handled
approximately 49 percent of the grantees  total closed cases and 71 percent of
the total open cases.
The OIG performed the audit fieldwork from May 24 through May 25, 1999
at the grantees main office in Baltimore.  Due to denial of access to information
based on attorney-client privilege claims made by grantee management during the
review of legal problem codes, the scope of our audit became limited.  This report
was prepared based on the work completed in the Baltimore office.
The OIG obtained and examined the grantees 1998 grant proposals to LSC
and its 1997 and 1998 grant activity reports.  The OIG reviewed staff manuals,
client intake systems and practices, case processing and closing procedures, and
selected grantee written policies and procedures.  During the on-site visit, the OIG
interviewed and collected information from the grantees deputy director, managing
attorneys, staff attorneys, paralegals, intake staff and other support staff.
The OIG also obtained and reviewed the data in the grantees automated
case management system to determine if the case statistical data reported to LSC
in the Grant Activity Report was consistent with information in client case files and
in compliance with applicable LSC reporting requirements.  The OIG randomly
selected 170 open and closed client cases for detailed review.  This selection was
made from the case populations in the grantees two largest offices, Baltimore and
Riverdale.  Sixty-five open and 65 closed cases were selected from the Baltimore
office and 20 open and 20 closed cases were selected from the Riverdale office.
We were unable to completely test our sample of cases because the grantee denied
access to information.  Our conclusions were therefore based upon the limited
testing conducted on the case files located in the Baltimore office.  The Baltimore
office handled approximately 36 percent of total closed cases and 54 percent of
the total open cases reported to LSC.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-277, incorporating by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The grantees revised 1998 Grant Activity Report included significant
overstatements in the Baltimore offices closed and open cases.  Most of the
overstatements occurred because the grantee failed to promptly close cases in the
automated case management system.
Case Service Reporting Requirements
LSC requires grantees to submit an annual Grant Activity Report summarizing
the previous years legal services activity wholly or partially supported with LSC
funds.  The information in the report includes total number of cases worked on,
types of legal issues, number of open and closed cases and the reasons cases were
closed.  The report also includes information on Migrant Farmworker and Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipients priorities.  Eligibility is based
on citizenship or eligible alien status and income and asset determinations and must
be documented.
Grantees 1998 Grant Activity Report
The grantee submitted its 1998 Grant Activity Report by March 1,1999 as
LSC requires.  After being notified of the pending OIG audit of its case statistical
data, the grantee submitted a revised 1998 Grant Activity Report that reported a
5.7 percent reduction in closed cases and a 45.5 percent reduction in open cases.
Grantee staff told auditors that the original report included closed cases that had
been closed prior to 1998 and open cases that had been closed.  The following
chart shows the total case reported in the original and revised reports.
ClosedOpen
Original Grant Activity Report18,28614,090
Revised Grant Activity Report17,2387,674
Reduction in Total Cases1,0486,416
Percent Reduction5.7%45.5%
Denial of Information
The grantee asserted attorney-client privilege in denying the OIG auditors
access to information in the case files on the type of legal services provided to
clients.  The auditors asked the attorneys responsible for cases to confirm the
validity of the legal problem code.  The attorneys stated that the requested
information would be provided only in cases in which the information previously
had been made public.  The grantees staff also declined to explain the type of
services provided for "referred after assessment" cases.  Without the requested
information, auditors could not determine if legal services had been provided and,
therefore, if the cases qualified to be reported.  The auditors did not ask for the
case files to be turned over to them or to review all documents in the file.  The
request was simply for a verification of the type of legal service provided.  Nine
other grantees have been audited and all provided the information the auditors
requested to verify that legal services were provided.
Examination of Reported Cases
The grantee overstated the number of closed and open cases for the
Baltimore office.  We estimated that the reported 6,195 closed cases were
overstated by 2,696 (43.5 percent) and the 4,197 open cases were overstated by
1,803 (43 percent).  The following chart shows the estimated overstatements.
ClosedOpen
Total Baltimore Cases6,195 4,197
Overstated Cases2,696 1,803
Percent Overstated43.5%43.0%
The estimated overstatements are based on a review of a sample of 65
closed and 65 open cases reported for the Baltimore office.  Most of the
overstatements were caused by the grantees failure to promptly close cases after
legal services were provided.  We estimated that 2,601 closed and 1,614 open
cases should not have been reported because of untimely closures.
Overstatements also occurred because legal services were not provided to some
clients and some cases were duplicates.  The following chart shows the causes of
the estimated overstated cases.
ClosedOpen
Untimely closure26011,614
Legal Services Not Provided95125
Duplicate Cases 64
Total Estimated Overstatements26961803
We were not able to verify that legal services were provided to all clients
represented in our 65 sample cases.  In one case we did determine that no legal
services were provided to the client.  If legal services were not provided to other
clients represented by our sample cases, additional overstatements may have
occurred.
Errors in Closed Cases
Our review of a random sample of 65 closed client case files disclosed 27
cases where the provision of legal services had been completed prior to 1998.
These cases should have been closed and reported in prior years when the legal
services had been provided.  We estimated that 2,601 cases should have been
closed and reported prior to 1998.  In addition, the grantee incorrectly reported an
estimated 95 cases for clients who were not provided legal services.  In total, the
grantee overstated closed cases for the Baltimore office by an estimated 2,696
cases.
Errors in Open Cases
Our review of a random sample of 65 open client case files disclosed 25
cases that were no longer being serviced.  Most of these cases should have been
closed prior to 1998.  Based on these errors, we estimated that the grantee
incorrectly reported 1,614 cases as remaining open at the end of 1998.  In
addition, we estimated that the grantee incorrectly reported another 189 cases as
remaining open at year end.  These were either cases in which no legal services
were provided or were duplicate cases (i.e. the same case was reported more than
once).  The estimated total overstatement of open cases was 1,803.
Supervisory Controls Lacking
The root causes of the reporting problems in the Baltimore office were the
failure of attorneys and paralegals to promptly close cases when legal services
were completed and a lack of supervisory controls over the case closings and
preparation of the Grant Activity Report.  Managers and supervisors did not
exercise sufficient management oversight to ensure cases were promptly closed.
The Grant Activity Report was not reviewed for correctness prior to its submission
to LSC.
CONCLUSIONS
Because the grantee denied access to information, our report findings are
based on limited work at the Baltimore office.  However, that work indicates that
the grantee needs to improve the accuracy of the case statistics reported in the
Grant Activity Report.  Even after being revised downward, the 1998 report
contained significant overstatements in both closed and open cases reported for
the Baltimore office.  The problems were systemic and, therefore, likely to occur in
the statistics reported for other offices.  These case reporting problems reflect the
absence of adequate management controls over attorneys and paralegals
responsible for closing cases and over the case management system.  The grantee
needs to establish management controls to ensure that cases are promptly closed
when the provision of legal services has been completed and to ensure that the
Grant Activity Report correctly reports closed and open cases.
RECOMMENDATIONS
The OIG recommends that grantee management:
Implement procedures to ensure supervisory review over the preparation and accuracy of the Grant Activity Report.
Implement procedures requiring supervisors to review closed cases periodically to ensure that data in the case management system is consistent with data in case files.
Implement procedures requiring the periodic review of open cases in the case management database to ensure that only active cases remain open.
Implement procedures to ensure that cases are appropriately closed in the case management database when the provision of legal services has been completed.
SUMMARY OF GRANTEE COMMENTS and OIG DECISIONS
Summary of Grantees Comments
The grantees comments disagreed with the draft reports conclusions and
stated that the draft audit report was "... faulty and misleading in a number of
ways."  The grantee asserted that the OIG was not denied access to information
and misrepresented the over reporting of cases.
The grantees comments are in Appendix II.
OIG Decision
The grantees comments were not constructive and did not provide any new
information.  We concluded that factual changes to the report were not warranted.
No evidence was provided to support the grantees assertion that the report was
faulty and misleading.  More important, the grantee provided no data that indicated
the Baltimore office reported the correct number of closed and open cases for
1998.
Grantees specific comments and OIG decisions
Grantee:  Denial of access to information
The grantees comments stated that the OIG had accused LAB of denying
access to information but had provided no explanation of how that alleged denial
prevented completion of the planned audit.  According to the grantee, the OIG was
not denied access to any documentation regarding eligibility for services.  LAB
advised OIG staff that, under Maryland law, LAB could not reveal the problem
codes of named clients who had not approved the release of information about the
substance of their cases to a third party.  The grantee stated that its staff declined
to verify the problem code or to tell the OIG the subject matter of only three cases.
OIG Decision
As part of our audit methodology, we ask case handlers or grantee
management to confirm the problem and closure codes for each of our sample
cases.  We then ask to review documentation from the case file that can be used
to verify the codes.  This process enables the audit staff to assess the validity of
the grantees assertions on the types of problems clients have and the level of legal
services provided.  Verification of problem and closure codes also provides
assurance that legal services were provided.  The provision of legal services is a
prerequisite to reporting a case, and the grantee denied access to information
needed to determine if legal services were provided.  This denial of information
precluded completion of the planned audit.
The report does not state that there were restrictions on access to eligibility
information.  Rather, the OIG was denied access to information needed to confirm
that clients were provided legal services.
When audit field work started, the grantee informed the auditors that the
problem codes for named clients could not be revealed without the clients
approval.  However, prior to the start of the audit, the grantee provided the
problem codes for all named clients of the Baltimore and Prince Georges County
offices.  As discussed below, the grantee confirmed the problem codes for 50 of
130 Baltimore office clients in our sample.  Citing prohibitions imposed by Maryland
law, the grantee declined to confirm or provide documentation for the legal
problems of the remaining 80 clients.
Grantees may refuse to disclose to the OIG information properly protected by
the attorney-client privilege.  The grantee declined to confirm the legal problem
code for named clients and asserted the information was protected by attorney-
client privilege.  However, as discussed in the American Bar Association
publication, The Attorney-Client Privilege and the Work Product Doctrine, the
information is not covered by attorney-client privilege.  The cited publication states
that an attorney ordinarily may not refuse to disclose a clients identity and that
"the privilege does not extend to the general nature of the legal services the
attorney was retained to perform and the terms of his engagement."(pages 47 &
48).  Therefore, we concluded that the requested documentation verifying the legal
problems of the grantees clients is not information to which the privilege attaches.
In making a claim of privilege, it is not sufficient for the grantee merely to
make a broad, unspecific assertion of privilege.  The grantee must demonstrate that
all the elements of the privilege are present.  The Attorney-Client Privilege and the
Work Product Doctrine, states that to assert privilege the attorney must
demonstrate that there was a "communication . . . between privileged persons . . .
in confidence . . . for the purpose of seeking, obtaining, or providing legal
assistance for the client ... and ... the privilege must be affirmatively raised and
cannot have been waived."  (pages 29 & 35).  This last is of critical importance
here, because even if the privilege did apply (which it does not), the grantee
already disclosed to the OIG the information that the OIG sought to verify.  Thus,
any privilege would have been waived.
In addition, Maryland law does not apply to questions of privilege when the
OIG requests information to which it has access under the Inspector General Act of
1978, as amended, the Legal Services Corporation Act of 1974, as amended,
and/or LSCs appropriations act.  Issues under these Federal laws are decided in
Federal Court.  Questions of privilege in Federal court are determined under Federal
common law, rather than the law governing privilege in the varying states. (Rule
501, Federal Rules of Evidence )
The OIG was not able to confirm the problem code, and therefore, that legal
services were provided for 80 of 130 sample clients serviced by the Baltimore
office.  The grantees comment that its staff declined to verify the problem code or
subject matter for only three cases is misleading.  At the start of audit fieldwork,
the grantee informed the audit staff that legal problem codes could be confirmed
only for cases in which the information previously had been made public.  The
grantee limited access to such information and the audit staff could not verify the
problem codes for the first three sample cases that involved information that had
not been made public.  The audit staff then asked grantee management to confirm
the problem code for those cases in which the required information had been made
public.  The problem codes for 50 of the 130 sample cases were confirmed. In
addition, the grantees staff declined to explain the nature of the services provided
for cases classified as Referred After Legal Assessment.  The audit staff could not
determine why these cases were accepted by the grantee and subsequently
referred to another legal services provider.  Our sample of 65 closed cases included
4 that were classified as Referred After Legal Assessment.
Grantee:  Over Reporting Of Cases
The grantee stated that the estimated 2,601 untimely closed cases appeared
to result from an alleged 27 out of 65 closed client files reviewed where the
provision of legal services had been completed prior to 1998.  According to the
grantee, the OIG did not provide any basis for its determination that these cases
should have been closed and reported in prior years.
As to open cases, the grantee stated that the OIG did not provide any basis
for its determination that 25 sample open cases were no longer being serviced.
According to the grantee, the statutes, regulations, Case Service Reporting
Handbook, Grant Activity Report instructions and other documents provided to LSC
grantees for use in 1998 did not include any requirement or even any guidance as
to the required timing of closure of cases or any restriction from reporting cases in
the 1998 Grant Activity Report where provision of legal services had been
completed prior to 1998 or which were no longer being serviced.
The OIG estimated that 95 closed and 125 open cases should not have been
reported to LSC because legal services had not been provided to the client.  The
comments stated that the alleged failure to provide legal services in one case (out
of a total of 130 cases examined) has been used erroneously in estimating
overstatements for both closed and open cases, and that the circumstances of the
case may have necessitated leaving it open in 1998.  Further, according to the
grantee, the OIG did not provide any data on how many duplicate cases were
found in the sample of open cases.
OIG Decisions
Our review of 65 closed cases disclosed 27 cases where the provision of
legal services had been completed prior to 1998.  Grantee management and/or the
responsible case handlers confirmed during audit fieldwork that these 27 cases
should have been reported as closed prior to 1998.
We reviewed 65 open cases and determined that 25 cases were no longer
being serviced.  Grantee management and/or the responsible case handlers
confirmed that these 25 cases should not have been reported as open at the end of
1998.  They stated that these cases should have been closed prior to 1998.
The grantee was incorrect in asserting that requirements and guidance on
reporting cases were lacking.  On November 24, 1998 LSC issued Program Letter
98-8 and revised the CSR Handbook.  The revised Handbook states that "Programs
shall ensure the timely closing of cases so that case service reports submitted to
LSC contain current and accurate information about both open and closed cases for
the grant year (January 1 through December 31)."  This provision applied to 1998
data.
Both the original and revised handbooks clearly indicated that case data is
collected on an annual basis.  The Case Service Report is intended to collect annual
statistics and not cumulative statistics on prior year services. Otherwise annual
statistics would be meaningless.  Moreover, good case management dictates that
cases be closed when legal services are no longer provided.
Our review disclosed that legal services were not provided to the client for
one closed case and two open cases.  The attorneys responsible for the three
cases confirmed during audit field work that legal services were not provided.
Grantee management confirmed during the audit that one open case in the
sample reviewed was a duplicate, i.e., this case was reported more than once.
Grantee Comments on Recommendations
The comments stated that the OIGs recommendations have been
implemented and agreed that the recommendations will strengthen the grantees
capacity for accurately reporting case statistical data.
OIG Decision
The grantee provided some information indicating that the recommendations
were being implemented.  The grantee should prepare a corrective action plan for
implementing the recommendations, including dates for completion of corrective
action, and submit it to the OIG within 30 days of the date of this report.
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
1.Closed cases were overstated (page 5)Recommendations #1, 2, 5, and 7
2.Open cases were overstated (page 7)Recommendations #1, 3, and 7
3.Other case management issues (page 8)Recommendation #6
Home | Reports | Top |
Table of Contents
Appendix II -- Grantee Response to Draft Report